11. Finance Charges on Account Balance
A FINANCE CHARGE computed on a monthly periodic rate (“MPR”)
will begin to accrue for new Purchases, if you do not pay the New
Balance in full within 25 days after the billing date of the statement on
which the new Purchases first appear. A FINANCE CHARGE computed
on a monthly periodic rate (“MPR”) will begin to accrue on the transaction
date of Cash Advance(s) or Purchases (except as provided above), or
the first day of the billing cycle, whichever is later, and will continue to be
imposed until you have paid any outstanding balance in full. The Credit
Union calculates the FINANCE CHARGE as follows:
a. The FINANCE CHARGE will be figured by applying the monthly
periodic rate of your Account, indicated in the following schedule, to the
average daily balance of Purchases and Cash Advances. The monthly
periodic rate and ANNUAL PERCENTAGE RATE (APR) to be used is
determined by the Account applied for or approved by us pursuant to the
terms of your application.
APR		
7.85%
MPR		 .654%

8.85%
.738%

11.85%
.988%

13.85%
1.15%

15.90%
1.33%

The APR and MPR are variable and are based on individual
creditworthiness and our underwriting standards. Your actual rate will be
set forth in your monthly statements.
You may consult with one of our loan officers regarding the category
assigned after evaluation of a completed application for our Credit Card.
Your APR will be set forth in each monthly statement.
b. To get the total average daily balance on your Account, we take the
beginning balance of your Account each day, add any new Purchases and
Cash Advances, unpaid Finance Charges, current late payment fees, any
annual fee, if applicable, and other fees, and subtract any payments or
credits. This is your daily balance. Then we add up all the daily balances
for the billing cycle and divide their total by the number of days in the
billing cycle. This gives you the average daily balance. This determines the
balance subject to the FINANCE CHARGE.
The Credit Union, in its sole discretion, may change the Monthly
Periodic Rate and ANNUAL PERCENTAGE RATE from time to time. Any
change in the Finance Charge shall apply both to the outstanding balance
and any new Purchase and Cash Advances. If the current effective rates
are different, they are disclosed on an enclosed/attached insert.
12. Promotional Finance Charges
From time to time and in our sole discretion we may offer a special
rate applicable to certain transactions such as particular purchases (as
defined by us), balance transfers or cash advances. Applicable terms and
conditions will be disclosed at the time any such promotion is offered, and
are incorporated into this Agreement by reference. The promotional rate
will apply only to the transactions and for the period of time set forth in any
such offer from us. Existing balances and new purchases or advances not
expressly subject to any such promotion will remain governed by the terms
and conditions of this Agreement. In addition, the terms and conditions of
this Agreement will govern your obligations regarding any unpaid balance
or transactions that are made subject to any such promotional offer, that
are not fully paid within the time period set forth in such promotional offer.
13. Interest Rate Adjustment (Default Rate)
Founders Federal Credit Union will adjust the interest rate on your
Account whenever your Account is three Minimum Payments past due.
We will change the interest rate to a variable rate of 17.9% ANNUAL
PERCENTAGE RATE, which is a monthly periodic rate of 1.49% on the
first day of the billing cycle following the cycle that was three Minimum
Payments Past Due. After six consecutive billing cycles of your Account
being paid pursuant to the terms of your agreements with the Credit Union,
we will change the interest rate to the rate that is then applicable to your
Account, which will become effective on the first day of the billing cycle
following the sixth consecutive billing cycle.
14. Monthly Statement
We will send you a monthly billing statement whenever there is
activity on your Account. Your monthly statement will show an itemized
list of current charges (Purchases and Cash Advances) to your Account,
your new balance, any Finance Charges, the Minimum Payment Due, and
the Payment Due Date. In addition, it will show your current Credit Limit,
Payments, and Credits, a summary showing your Purchases and Cash
Advances, the merchant, electronic terminal or financial institution at

which transactions were made, as well as other information concerning
your Account. Sales, Cash Advance, credit or other slips cannot be
returned with any statement. You will retain a copy of such slip furnished
at the time of the transaction in order to verify your monthly statement.
eStatements: If provided electronically, you will be sent a notice via
email that will direct you to a site we maintain or cause to be maintained
where you may access, review, print and otherwise copy/download your
periodic statements using procedures that we authorize. Emails from us
will be sent to the email address provided by any owner.
15. Merchant Disputes/ATM
The Credit Union is not responsible for the refusal of any merchant or
financial institution to honor your Card except as set forth in the Special
Rules for Credit Card Purchases set forth at the end of this Agreement.
16. Skip Payment Option
At our option, we may offer you the opportunity to not make (“skip”)
a minimum payment during certain designated billing cycles (“skip
payment period”). If you do not make your minimum payments as provided
in this Agreement, during such designated billing cycles, you understand
that we will continue to apply finance charges to your Account. Beginning
with the billing cycle following an allowed skip payment period, all other
provisions of this Agreement will apply. We have no obligation to accept
your application for any skip payment period offered, and you authorize
us to investigate your creditworthiness including obtaining consumer
credit reports. We may charge you an application processing fee of up to
$35 for each skip payment period that we may offer to cover our costs of
investigating your qualifications for this extension including but not limited
to the costs associated with researching your creditworthiness.
17. Late Payment Fee
Credit Union will charge your Account a late payment fee of up
to $32 for each billing period in which your minimum payment is not
received by the statement closing date. This fee will be added to your
Account Balance.
18. Returned Payment or Insufficient Funds Fee
Credit Union will charge your Account up to a $32 fee if your
payment by any method, including check, electronic transfer, home banking
transaction or otherwise, is not honored, collected by us, or if we must
return it to you because it cannot be processed for any reason. This fee
may be added to your Account balance, or collected from you on demand.
19. Charge for Copies and Research
If you ask for a copy of any document, such as a sales slip or billing
statement, a charge of $20 per hour may be imposed for the time it takes
to research and locate the document. In addition, a copying fee of $2 per
copy will be imposed. However, no charge will be imposed in connection
with any actual or asserted billing error.
20. Your Responsibility and Liability for Unauthorized Use and Lost
or Stolen Cards
If your Card is lost or stolen, or if you believe someone used it
without your permission, you must notify the Credit Union at once by
calling 1-800-845-1614, or providing written notice to: Founders Federal
Credit Union, 737 Plantation Road, Lancaster, South Carolina 29720. If
notice is given orally, you will promptly confirm it in writing. The Credit
Union may require you to provide us certain information in writing to help
us investigate any unauthorized use. Further, you agree to cooperate
and assist us or any government or law enforcement agent or agency in
investigating, collecting or pursuing any other rights (civil and criminal)
relating to any unauthorized use. In this regard, you agree to file an
appropriate police report when asked to do so. Do not use the Card after
you have notified the Credit Union, even if you find them or have them
returned to you.
You are liable for all transactions that you authorize. No Liability:
You will have no liability for unauthorized use of your Card or other
Access Devices for non-ATM transactions made over the “Visa
Network” if the following conditions are met: (1) You have not been
negligent; and (2) You have not committed, participated in or conspired
to commit any fraudulent act or scheme involving the use of your Credit
Card Account. Limited Liability: For transactions on other networks
or ATM transactions, you may be liable for unauthorized transactions
using your Card or other Access Devices that occur before we are

notified. However, your liability for unauthorized use on networks other
than Visa will not exceed $50. In any case, you will not be liable for any
unauthorized use after notifying us of the loss, theft or unauthorized use of your
Card or other Access Devices.
21. Default
You will be in default if: (a) you fail to pay the Minimum Payment Due
by the Payment Due Date; (b) the Credit Union, in its sole discretion, feels
insecure (For example: Our good faith belief that your ability to pay your acount
is impaired; use of your Account in any manner or in any way that may expose
the Credit Union to a risk of loss; etc); (c) your ability to repay is materially
reduced by a change in your employment, by an increase in your obligations,
by bankruptcy or insolvency proceedings involving you, by your death, or (for
community property state residents only) by a change in marital status or
domicile; (d) you exceed your Credit Limit without our permission; (e) you have
made a false or misleading statement to us in your application or otherwise; (f)
you are in default under any other agreement with us; (g) if you use or authorize
the use of any Card(s) to make or facilitate any illegal transaction; or (h) you fail
to perform any of your other obligations under the terms of this Agreement as it
may be amended. Upon default we may close your Account to future purchases
and advances and, to the extent not prohibited by Governing Law, demand
immediate payment of your entire Account balance, after giving you any notice
and opportunity to cure the default if required by applicable law. The Credit
Union’s sole obligation hereunder with regard to determining and declaring
an event of default is the exercise of “good faith,” based on its subjective
understanding of applicable facts and law. We shall also have the right to close
your Account and terminate access privileges where your Account is inactive for
such periods of time as we may from time-to-time determine to be appropriate
for protecting both our and your interests.
22. Collection Costs
You agree to pay all costs incurred by the Credit Union in collecting
any amounts you owe or in enforcing or protecting the Credit Union’s rights
under this Agreement, including attorneys’ fees of 15% of the unpaid balance or
such greater sum as may be reasonable, and also those costs, expenses and
attorneys’ fees incurred in any appellate, bankruptcy and post-judgment
proceedings, except as limited or prohibited by applicable law.
23. Updating and Disclosing Financial Information
We may report your performance under this Agreement to credit reporting
agencies and secure follow-up credit reports on you for any legitimate
business reason, including if you fail to make your minimum payments on
time. We can reinvestigate and reevaluate any information you provide on your
Credit Card application at any time, and in the course of doing so, we may
ask you to provide additional information, request credit bureau reports and/or
otherwise verify your current credit standing. Access to Account Information: You
agree that all borrowers and authorized users will have access to information
regarding transactions on your Account, including but not limited to Purchases
and Cash Advances, Account Balances, Account History, Payments and other
information relating to or arising with regard to this Account or any transaction.
24. Correcting the Credit Union’s Credit Report
If you think the Credit Union reported erroneous information about you to
a credit reporting agency, call the Credit Union at the telephone number listed
on your monthly billing statement. Credit Union will promptly investigate the
matter. Credit Union will contact each credit reporting agency whose records
may reflect an error. Credit Union will require them to correct your report if its
investigation decides that you were correct. If Credit Union disagrees with you
after the investigation, Credit Union will advise you, in writing or by phone, and
instruct you how to submit to those agencies a statement of your position that
will become a part of your credit record with them. The instructions will include
the name, address, and phone number of each such agency, along with other
pertinent information.
25. Closing Your Account
Any individual cardholder without the consent of other cardholders,
may close your Account at any time by notifying the Credit Union in writing.
Credit Union may close your Account or suspend your Card privileges at any
time without prior notice. Credit Union may also reissue a different Card or
different checks at any time. You must return the Card to the Credit Union upon
request. You agree that the Card remains the property of Credit Union. Each
Card we issue will have an expiration date. Upon expiration of your Card your
Account will automatically terminate; or the Credit Union, in its sole discretion,
may extend your Agreement and issue a new Card with a new expiration date.

If your Account is closed, expires or your credit privileges are terminated or
suspended, you will remain responsible for paying all amounts you owe us
according to the terms of this Agreement. Without limiting the foregoing, the
Credit Union has the right to terminate your Line of Credit or any part of the
services provided persuant to this Agreement and to demand the return of
all Cards, Access Checks and other access devices if the Credit Union, in its
sole discretion, feels that it is insecure for any reason whatsoever; including
but not limited to mismanagement of your Account, failing to safeguard any
access device, creation of any credit balances by you that may increase the
risk of loss or exposure of the Credit Union or failing to cooperate with the
Credit Union or others with regard to any claim of unauthorized use or any
other defense to payment under applicable law.

designated Checking or Savings Account on your Payment Due Date. If
your designated Account does not contain sufficient funds, no automatic
deduction will be made; we will bill you for the Minimum Payment Due; and
your Account will be charged up to a $32 insufficient funds fee and you will be
responsible for making the payment by some other means.

26. Changing This Agreement
The Credit Union may change the terms of this Agreement, including the
Annual Percentage Rate, at any time. Except where limited by applicable law,
the new terms, including, but not limited to, increasing the finance charge or
the way the Credit Union calculates finance charges, late charges, and the
Minimum Payment Due, will apply both to new purchases and cash advances
and to the existing outstanding balance of your Account as of the day of the
change. In accordance with applicable law, the Credit Union will notify you of
any increased charge or change by writing to you at the most recent address
shown for you on the Credit Union’s records.

32. Compliance with Applicable Laws and Prohibition of Illegal
Transactions
You warrant and agree that you will at all times comply with all Applicable
Laws; and that your card and services are at all times subject to Applicable
Laws. Further, you warrant and agree that your Credit Card, other access
device or any related Account will not be used to make or facilitate any
illegal transaction(s) as determined by applicable law; and that any such
use, including any such authorized use, will constitute an event of default
under this Agreement. Certain federal and/or state laws or Card Service
Providers’ Rules may limit or prohibit certain transactions such as (but not
limited to) those coded as possible gambling transactions. The Credit Union
may decline to accept, process or pay any transaction that we believe to be
illegal or unenforceable (regarding your obligation to pay us or otherwise)
under applicable law; or which is otherwise limited or prohibited, including
but not limited to any transaction involving or relating to any gambling activity.
Such prohibition or limitations may affect some otherwise proper or allowable
transactions such as charges incurred at a hotel-casino. You understand and
agree such limitations/prohibitions are not within the Credit Union’s control
and that the Credit Union will not have any liability, responsibility or culpability
whatsoever for any such use by you or any authorized user(s); or for
declining to accept, process, or pay any such transaction. You further agree
to indemnify and hold the Credit Union harmless from any suits, liability,
damages or adverse action of any kind that results directly or indirectly from
any such use of your Account and/or access devices.

27. Delay in Enforcement/Waivers
The Credit Union may delay or waive enforcement of any of the
provisions of this Agreement, including any agreement to make timely
payments, without losing its right to enforce the same provision later or any
other provisions of this Agreement. You waive the right to receive notice
of any waiver or delay or presentment, demand, protest or dishonor. You
also waive any applicable statute of limitations to the full extent permitted
by law and any right you may otherwise have to require the Credit Union to
proceed against any person before suing you to collect. You understand that
the Credit Union will not be liable for a merchant’s or other parties’ refusal to
honor your Card whether due to an error by the Credit Union, the merchant,
the Credit Union’s authorized agent, or other third party.
28. Change of Name, Address or Employment
You will notify immediately the Credit Union in writing if your name, home
address, or employment changes.
29. Additional Terms of Credit Card Agreement
To the extent not prohibited by applicable law, the terms, interpretation
and enforcement of any claim or dispute arising under this Agreement, as
well as all parties’ rights and duties, will be governed by South Carolina
law regardless where you may reside or use your Account. Further,
this Agreement is the contract which governs all transactions on your
Account even though Sales, Cash Advances, Credit or other slips may contain
different terms. You may not transfer or assign your Account or Card to any
other person. The Credit Union may assign or transfer this Account, your
Account balance, or this Agreement to another person, who will have all
of our rights hereunder. This Agreement is binding on your heirs and legal
representatives. If there are joint obligors or authorized users for this credit
plan, each of you will have the right to use the Account to obtain loans pursuant
to the terms hereof. Any one obligor’s elections, transactions and directions
to the Credit Union shall be binding upon all obligors. Each of you will be
liable for all obligations owing on the Account whether borrowed by you or
otherwise and whether within or beyond the Credit Limit. Your liability will be
joint and several. Either party has the right to cancel this Agreement. Further
each of you are responsible for all amounts borrowed by any authorized user(s).
Authorized users and other users may also be required to repay the amount
owed for charges they make; however, you remain, at all times, primarily
responsible for all amounts owed. All Cards, billing statements and notices will
be mailed or delivered to the address given on the application for either applicant
unless you direct otherwise in writing. If any law or judicial ruling makes any
provision of this Agreement unenforceable, the other provisions will remain
in full force and effect. You agree that your Account will also be subject to
all rules and regulations of Visa U.S.A., Inc. as applicable. If there is any
conflict between this Agreement and the rules and regulations of Visa U.S.A.,
Inc. the rules and regulations of Visa U.S.A., Inc. will control.
30. Convenient Payment Option
If you requested the Convenient Payment Option in your Application,
all Minimum Payments Due will automatically be deducted from your

31. Insurance
If you elect insurance, as set forth in your application, then the charges
will be added to your Account balance on each billing cycle, if your designated
insurance application is approved. Credit insurance is voluntary and not
required to obtain a Credit Card Account with us. You have a right to
terminate this insurance at anytime by notifying us in writing.

33. “Electronic Signature” Disclosure, Communications, Statements,
Agreements and Notices
You specifically agree that the Credit Union may provide all disclosure,
statements, agreements, notices, amendments, revisions and other
documents electronically. For instance, if you apply for any service on our
Website, all agreements and disclosures will be made available to you
electronically. You will be able to download and/or print these disclosures,
statements, agreements and notices through an appropriate electronic
terminal and/or printer. You should review all such disclosures, statements,
agreements and notices, and keep them in a safe and convenient place.
You consent and agree that your use of a key pad, mouse or other device
to select an item, button, icon or similar act/action while using any electronic
service we offer; or in accessing or making any transactions regarding any
agreement, acknowledgment, consent, terms, disclosures or conditions
constitutes your signature, acceptance and agreement as if actually signed
by you in writing. Further, you agree that no certification authority or other
third party verification is necessary to the validity of your electronic signature;
and that the lack of such certification or third party verification will not in
any way affect the enforceability of your signature or any resulting contract
between you and the Credit Union.
You agree that we have no obligation, liability or responsibility
to respond, act upon, or follow any instruction to us that is received
electronically, by email or otherwise, unless we are able to authenticate
the communication to our satisfaction. You further agree that the Credit
Union has no obligation or liability for acting upon any such instruction that
it in good faith believes to be authentic. You further acknowledge and agree
that the Internet is inherently insecure; and agree that we have no liability or
responsibility for any loss, claim or damages that arises or in any way relates
to our response(s) to any email or other electronic communication which we
believe you have submitted to us.
34. Recording Conversations
You understand and agree that for our mutual protection we may monitor
and record any of our telephone conversations.

35. Visa Account Updater (VAU)
VAU is an account updating service in which your card is automatically
enrolled. When your card(s) expire, are lost or stolen and new cards are
issued, the service may update relevant card data (card numbers and
expiration dates) to appropriate merchants who participate in an effort to
facilitate uninterrupted processing of your recurring charges. This service
provides updates to a Visa database only. The database is accessed by those
qualified merchants seeking your account information after you have requested
they process a recurring payment or payments. This service is provided as a
free benefit to you. If at any time you wish to opt-out of the VAU service or if you
have any questions, please call 1-800-845-1614 to do so.
36. Member Communication
By providing a telephone number(s) to us now or anytime at a later date,
you authorize us or our affiliates and designees to contact you regarding
suspicious activity at such number using any means, including but not limited to
text messages and pre-recorded voice calls, even if charges may be incurred for
the calls or text messages by your wireless carrier. Carriers are not responsible
for undelivered messages.

Your Billing Rights
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our
responsibilities under the Fair Credit Billing Act.
NOTIFY US OF ERRORS OR QUESTIONS ABOUT YOUR BILL.
If you think your bill is wrong, or if you need more information about a
transaction on your bill, write us (on a separate sheet) at the address listed on
your bill. Write to us as soon as possible. We must hear from you no later than
60 days after we sent you the first bill on which the error or problem appeared.
You can telephone us, but doing so will not preserve your rights.
In your letter, give us the following information:
- Your name and Account number
- The dollar amount of the suspected error
- Describe the error and explain, if you can, why you believe there is an error.
- If you need more information, describe the item you are not sure about.
If you have authorized us to pay your Credit Card bill automatically from your
Savings or Checking Account, you can stop the payment on any amount you
think is wrong. To stop the payment, your letter must reach us three business
days before the automatic payment is scheduled to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE RECEIVE YOUR
WRITTEN NOTICE
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct the error or
explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill you for the amount
you question, including finance charges and we can apply any unpaid amount
against your Credit Limit. You do not have to pay any questioned amount while
we are investigating, but you are still obligated to pay the parts of your bill that
are not in question.
If we find that we made a mistake on your bill, you will not have to pay
any finance charges related to the questioned amount. If we didn’t make a
mistake, you may have to pay finance charges, and you will have to make up
any missed payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due. If you fail
to pay the amount that we think you owe, we may report you as delinquent.
However, if our explanation does not satisfy you and you write us within 25 days
telling us that you still refuse to pay, we must tell anyone we report you to that
you have a question about your bill and we must tell you the name of anyone
we reported you to. We must tell anyone we report you to that the matter has
been settled between us when it finally is.
If we don’t follow these rules, we cannot collect the first $50 of the
questioned amount, even if your bill was correct.
SPECIAL RULES FOR CREDIT CARD PURCHASES
If you have a problem with the quality of property or services that you
purchase with a Credit Card and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining
amount due on the property or services. There are two limitations on this right:

(a) You must have made the purchase in your home state, or if not within
your home state, within 100 miles of your current mailing address;
(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we
mailed you the advertisement for the property or services. Further, the Credit
Union has no liability for any tort or related claims arising from such purchases.

State Law Disclosures
Notice to New York and Vermont Residents: We may obtain your credit reports at
any time for any legitimate purpose associated with the Account, and application or a
request for an Account including but not limited to reviewing, modifying and collecting
on your Account. On your request we will inform you if such a report was ordered. If
so, you will then be given the name and address of the consumer reporting agency
furnishing the report. New York residents may contact the New York State
Department of Financial Services by telephone (1-877-226-5697) or by visiting their
website at https://www.dfs.ny.gov/consumers/banking_money for a comparative list of
credit card rates, fees and grace periods.
Notice to Ohio Residents: Ohio laws against discrimination require that all creditors
make credit equally available to all creditworthy customers, and that credit reporting
agencies maintain separate credit histories on each individual upon request. The Ohio
Civil Rights Commission administers compliance with this law.
Notice to Married Wisconsin Residents: No agreement, individual statement, or court
order, applying to marital property will adversely affect the creditor’s interest unless the
creditor, prior to the time credit is extended, is furnished with a copy of the agreement,
statement, or order, or has actual knowledge to the adverse provision when the
obligation to the creditor has occurred.
Notice to California Residents: Regardless of your marital status, you may apply for
credit in your name alone. After credit approval, you may use the Credit Card Account
up to its credit limit. You will be liable for payment of all amounts extended under the
plan to you, any joint applicant or authorized user. Further, a negative credit report
reflecting your credit record may be submitted to a credit reporting agency if you fail to
perform the terms of your credit obligations.

Visa Preferred No Frills
Agreement and
Disclosure Statement

Federally insured by NCUA.
Form 4367

M-132328

M-132328

The information about the costs of the card described in this application is accurate as of October 1, 2020.
This information may have changed after that date. To find out what may have changed, call 1-800-845-1614,
visit foundersfcu.com, or write Founders FCU, 737 Plantation Road, Lancaster, SC 29720.

The credit union will acquire a security interest in the property purchased with your Credit Card; and
collateral securing other loans with us may also secure this account. Also, you are giving us a security
interest in your shares and other deposits in the credit union.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your account agreement.

How will we calculate Your Balance: We will use a method called “average daily balance (including new
purchases)”. See your account agreement for more details.

Late Payment Fee: Up to $32
Returned Payment Fee: Up to $32
Penalty Fees

Cash Advance Fee: $0
Balance Transfer Fee: $0
Receipt Copy Fee: $5
Research Fee: $20/hr ($2 per copy)
Expedited Card Fee: $20
Foreign Transaction Fee: 1.00% of each transaction in U.S. dollars
Transaction Fees

Set Up and Maintenance Fees

Fees

None

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at:
www.consumerfinance.gov/learnmore
For Credit Card Tips
from the Consumer
Financial Protection
Bureau

Paying Interest

Your due date is at least 25-days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

How Long will the Penalty APR Apply? If your APRs are increased, the Penalty
APR will apply until you make six consecutive minimum payments when due; and
you do not again default on these conditions during this time.

17.90%

This APR may be applied to your account if your account is three minimum
payments past due (60 days).

Penalty APR and
When it Applies

Introductory APR for
Balance Transfers

2.85% to 6.85%

Introductory rates for first 6 months for qualified applicants based on your credit
worthiness and applies to balance transfers made between 10/1/2020 and 12/31/2020.
Your introductory rate will apply for 6 months from the date of the balance transfer.
After 6 months your APR will vary with the market based on the Prime rate.

This APR will vary with the market based on the Prime rate.

based on your creditworthiness.

7.85%, 8.85%, 11.855%, 13.85% or 15.90%,

Standard ANNUAL PERCENTAGE
RATE (APR) for Purchases, Cash
Advances and Balance Transfers

Interest Rates and Interest Charges

Founders Federal Credit Union Visa Preferred No Frills Credit Card Disclosure

Security For Advances and Purchases: The Credit Union will acquire a
security interest in the property purchased with your Credit Card; and
collateral securing other loans with us may also secure this Account.
Also, you are giving us a security interest in your shares and other
deposits in the Credit Union. This information was accurate as of the
printing October 1, 2020 and after that date is subject to change. For changes since printing, call Founders Federal Credit Union at 1-800-845-1614 or
write us at: Founders Federal Credit Union, 737 Plantation Road, Lancaster,
South Carolina 29720.
AGREEMENT AND DISCLOSURE
This is your Agreement and Disclosure Statement with Founders
Federal Credit Union. Please read it carefully and keep it for your records. It
supersedes all prior agreements and disclosure statements relating to your
Account. You do not have to sign this Agreement. Your agreement to all of
these provisions, as amended from time to time including the Card issued by
us, will be shown by your application for the Card, your acceptance of the
Card, or your use of the Card, whichever occurs first.
MILITARY LENDING ACT NOTICE
Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or
account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account). To receive this
information and a description of your payment obligation verbally, please call
1-800-845-1614 during our normal business hours.
1. Definitions
In this Agreement, the word “Card” means either one or more Visa
Credit Cards and any duplicates, renewals or substitutions we issue. The
words, “you,” “your,” and “yours” mean all Cardholders (borrowers and
co-borrowers); anyone any cardholder permits to use the Card(s); as well as
any authorized user for whom an additional Card(s) is issued to the extent of
their purchases and cash advances, as well as transactions by anyone they
permit to use the Card(s). The word “cardholder” means any applicant or
co-applicant to whom a Card is issued by us. The words “Credit Union,” “we,”
“us,” and “our” mean Founders Federal Credit Union. “Applicable Law” shall
include: “(i) Visa U.S.A. Inc. Bylaws, Visa U.S.A. Inc. Operating Regulations,
Visa U.S.A. Inc. Certificate of Incorporation, Visa International Bylaws, and
Visa International Operating Regulations; and (ii) any and all laws, treaties,
rules, regulations, or regulatory guidance of the government of the United
States, and any state thereof, or of any applicable foreign government or
state thereof, as the same may be amended and in effect from time to time.
2. Pledge of Shares and Security Interest
By signing an application, acceptance or authorized use of any
Credit Cards, you grant and pledge a consensual lien to us on all shares on
deposit as defined by your membership agreement to secure payment
of your obligations on this account. In addition, you acknowledge our
statutory lien rights under the Federal Credit Union Act; you agree
that such a lien is impressed as of the date that this account is
opened; and you agree that we can apply the shares pledged at
the time of any default on this account without further notice.
“Shares” for the purpose of your pledge to secure your obligations to the Credit Union means all deposits in any savings, checking, club, certificate, P.O.D., revocable trust or custodial account(s),
whether jointly or individually held – regardless of contributions,
that you have on deposit now or in the future. Your pledge does
not include any I.R.A., Keough, tax escrow, irrevocable trust or
fiduciary account in which you do not have a vested ownership interest.

SECURITY AGREEMENT: Payments on your Account are secured by
any security interest in any property securing your other obligations to the
Credit Union, whether existing now or in the future, except your household
goods and your primary residence. Further, you hereby grant Credit Union
security interest in all property purchased through this credit plan, including
a purchase-money security interest in any household goods purchased
with an extension of credit upon this Account. These Purchase-Money
Security Interests shall secure faithful performance of all obligations
arising under this Agreement; and the Credit Union shall have all of the
rights of a secured party in accordance with Article Nine of the Uniform
Commercial Code and/or other applicable law.
Military Lending Act Partial Exception: If you or your dependents are
expressly covered and entitled to the protections provided by the Military
Lending Act then any provisions of the Agreement (below) that address
the items expressly excepted in any section to the contrary also do not
apply to such Loans.
3. How to Use this Account
You must sign the Card in order to use it. You can purchase or lease
goods and services (“Purchases”) from any merchant who honors your
Card up to your Maximum Credit Limit by presenting your Card and
signing a sales slip for the amount of the Purchase. You may also use
the Card to obtain cash loans (“Cash Advances”) up to the lesser of your
established credit limit or $5,000.00 from financial institutions that accept
a Visa Credit Card. Funds advanced from your credit card for Balance
Transfers and at ATMs are considered Cash Advances and will decrease
your Available Cash amount. See your monthly billing statement for your
Available Cash amount. At our discretion, we may change your limits for cash
advances. We will notify you if we do through your monthly billing statement.
You agree not to present your Card or obtain a Cash Advance for any extension
of credit in excess of your available Credit Limit (the difference between your
outstanding balance and your Maximum Credit Limit) on your Account.
Certain purchases and cash advances will require an authorization
prior to completion of the transaction. In some cases, you may be asked to
provide identification. If our system is not working, we may not be able to
authorize a transaction, even though you have sufficient credit available.
Also, for security reasons, we may block the usage of your Card in certain
countries or geographic areas. We will not have any liability to you or others
if any of these events occur.
You authorize us to honor any Purchase or Cash Advance you make
by telephone or mail on this Account. You agree that a signature is not
necessary as identification in such cases. We reserve the right to refuse to
honor any request for credit, to reduce your Credit Limit or terminate your
Account at any time using our sole discretion, based on changes in the
economy, the Credit Union’s financial condition, your creditworthiness or for
any other reason not prohibited by law.
4. ATM Access
If you have received a personal identification number (PIN), you may
use your Card and PIN to obtain Cash Advances at any Automatic Teller
Machine (“ATM”) that accepts your Card. Your PIN is confidential and should
not be disclosed to anyone. You agree not to write your PIN on your Card,
you will not keep your Card and PIN together, and you will not provide your
PIN to anyone who is not an authorized user. Except as otherwise provided
in this agreement, advances through ATM access will be treated as Cash
Advances under this Agreement. Advances at authorized ATM’s are limited
to a total of $500 during any 24-hour period. The total of all cash advances on
your Account and any withdrawals from your other Accounts through an ATM
in any 24-hour period may be combined for the purpose of this limitation.
We are not responsible if any ATM does not have enough cash for your
transaction or is not in proper working order.
Although we do not charge a fee for this service, others may. Owners
of ATMs that we do not own may charge fees in addition to any fees
disclosed in this Agreement. This is not a fee charged by your Credit
Union; however, any such fee will be added to your Account. The party
charging the fee is required to provide appropriate disclosures to you with
regard to any such fees.
5. Maximum Credit Limit
Your Maximum Credit Limit and your Cash Credit Limit (Cash Advance
Limit) will appear on your monthly statement. At our discretion, we may change

your Credit Limits at any time, and may provide separate limits for purchases
and for cash advances. We will notify you if we do, either by mail or through your
monthly billing statement. You may request a change to your Credit Limit by
contacting the Credit Union by telephone or mail. Your continued use of the card
will show your agreement to any such increase. If you object to an increase
in your Credit Limit, you must notify Credit Union in writing. Upon receipt of
such notice, your Credit Limit will be reduced to its prior limit; however, you
will be responsible for paying any amounts by which you have exceeded the
reduced limit. You agree to pay any amounts you owe that exceed your
Maximum Credit Balance upon demand.
You agree we are not obligated to extend to you credit for any amount that
would cause your outstanding balance to exceed your Maximum Credit Limit,
or for any amount if your outstanding balance already exceeds your Maximum
Credit Limit. Any increase in your Maximum Credit Limit requested by you will
require you to make a written application for our approval. In assessing any
increase to your Credit Limit under the provisions in this Section (either at our
discretion or upon request): (a) we may and you authorize us to review your
credit history, including consumer credit reports; (b) you authorize us to have
this review made by third parties to determine whether you meet the criteria we
have set for such an increase; and (c) this process shall not be pre-screening
under the Fair Credit Reporting Act or other applicable laws or regulations
based on our existing relationship and this Agreement.
Credit Balances in excess of $1 will be refunded upon your written
request or automatically after six months by depositing the Credit Balance to
your Savings Account or by mailing a check to the address to which statements
are provided payable to the order of any cardholder. You agree that the
Maximum Credit Limit will at no time exceed the agreed upon amount, and that
any Credit Balance will not be available or increase the Maximum Credit Limit
available for new Purchases or Cash Advances during any billing cycle.
6. Payments
You will be jointly and severally liable and agree to pay the Credit Union for
all charges (purchases, cash advances, finance charges, and other charges
added to your Account under the terms of this or any other agreements with
us) extended to you or anyone else using any Card issued for your Account,
unless the use of such Card is by a person other than you, who does not have
actual, implied or apparent authority for such use and from which you receive no
benefit. Authority includes, but is not limited to, any authorized user’s permitting
another person to use any Card(s). Further, all users are obligated to us for all
charges they make, authorize or permit.
The Credit Union can accept late or partial payments as well as payments
that are marked with “paid in full” or other restrictive endorsements, without
losing any of our rights under this Agreement. If you pay more than the
Minimum Payment Due, we will allocate the excess amount to your Account
Balance with the highest annual percentage rate. You must pay the Credit
Union in U.S. dollars drawn on funds on deposit in the United States. If you
make payment with other currencies or from an institution domiciled outside
the United States, then your payment will not be credited until the funds have
been collected by us in U.S. dollars. The Credit Union will determine the
method of applying payments and credits to your Account.
If you have a promotional rate balance on your Account, Founders will
allocate payments/credits to your Account as follows: Minimum Payments due
on your Account will be applied first to pay balances incurred during the lowest
APR promotional period still in effect on your Account. Payments in excess of
the Minimum Payment Due will be applied first to pay balances incurred during
the highest APR period still in effect on your Account. Applicable terms and
conditions, which are disclosed at the time any such promotion is offered, shall
supersede the terms outlined under “payments” in the Credit Card Agreement
and Disclosure Statement.
Unless otherwise required by specifically applicable laws, for payments
received by mail by 5:00 PM EST, you will receive credit that day; and for
payments made in any other manner, including in person, your Account will be
credited the day payment is received.
You authorize us to honor any Purchase or Cash Advance you make by
telephone or mail on this Account. You agree that a signature is not necessary
as identification in such cases. We reserve the right to refuse to honor any
request for credit, to reduce your Credit Limit or terminate your Account at any
time using our sole discretion, based on changes in the economy, the Credit
Union’s financial condition, your creditworthiness or for any other reason not
prohibited by law.
To protect you and us, the Credit Union, in its sole discretion, may place a
temporary freeze on the credit available to you under this agreement any time
the Credit Union receives a large payment ($500 or more), by a method other

than cash. In such cases, the Credit Union may freeze your Credit Line
until payment is actually collected by us.
7. Minimum Payment Due
You can pay off your Account balance in full each month or you can
pay in monthly installments. If you do not pay your balance in full, you
agree to pay at least a minimum payment of 2% of your new balance
(rounded to the nearest whole dollar) or $25, whichever is greater. If the
new balance shown on your periodic statement is $25 or less, you agree
to pay this amount. Unless the Credit Union takes other action as a result
of a default under this Agreement, the Minimum Payment Due will also
include any amount that is past due and any amount by which your new
balance exceeds your Credit Limit. Payments and credits will be applied
first to pay billed but unpaid finance charges, late charges, and similar
charges and next to pay cash advances and purchases. You must pay
at least the minimum payment each month, but you may pay more than
that amount at any time without a penalty. The sooner you pay your new
balance, the less you will have to pay in finance charges.You may pay your entire
Account balance at any time without penalty.
Grace Period For Repayment Of The Balance For Purchases:
Grace period for repayment of the balance for purchases is approximately
30 days from the close of the billing cycle. There is no grace period for
cash advances or balance consolidations. See your statement for billing
cycle date.
8. Returns and Adjustments
Merchants and others who honor your Card may give credit for returns
or adjustments, and they will do so by sending the Credit Union a credit
slip which will be posted to your Account. If your Credits and Payments
exceed what you owe the Credit Union, the amount will be applied against
future purchases and cash advances. If the Credit Balance amount is $1
or more, it will be refunded upon your written request or automatically after
six months.
9. Charges Made in Foreign Currencies
Additional Charges for Transactions in a Foreign Currency and
“Cross-Border” Transactions. Currency Conversion Fee: If you effect
or authorize a transaction with your access device in a currency other
than US Dollars, Visa will convert the charge into a US Dollar amount.
The Visa currency conversion procedure includes use of either a
government mandated exchange rate, or a wholesale exchange rate
selected by Visa, as applicable. The exchange rate Visa uses will be
a rate in effect on the day the transaction is processed. This rate may
differ from the rate in effect on the date of the purchase or the date the
transaction was posted to your Account. A Currency Conversion Fee of
up to 1% may be applied to transactions that are converted from foreign
currencies to U.S. dollars. Cross-Border Transaction Fee: In addition, Visa
charges us a Cross-Border Assessment up to 1% on each transaction
on all Cross-Border Transactions regardless of whether there is a currency
conversion. For purposes of this Section, “Cross-Border Transaction”
shall include both (a) transactions initiated in a foreign country which are
subsequently settled in the United States, and (b) transactions initiated
in the United States but which are ultimately settled in a country outside
of the United States. The Credit Union will assess these fees to you to
reimburse it for the fee it is required to pay for each of your transactions
subject to these terms. The fee(s) will be shown separately on your
periodic billing statement(s). The Currency Conversion Fee, if it applies
to the transaction, will be included in the transaction amount posted on
your statement.
10. Variable Rate Information
Your APR for purchase, cash advances and balance transfer
transactions may vary. Your Credit Card has a variable rate feature
meaning the Annual Percentage Rate (corresponding to the periodic
rate) and the term of your Visa Credit Card may change due to
interest rate fluctuations. The rate is determined by adding a margin
between 4.60% and 12.65% to the prevailing U.S. Prime Rate. The
Prime Rate, used to determine your APR, is the rate published in the
“Money Rates” section of the Wall Street Journal on the 25th day of
the prior month. The APR will change, if needed, based on this rate
calculation method at your billing cycle date. We reserve the right
NOT to increase the variable rate if Prime increases.

